Audit Report




OIG-14-022
Management Letter for the Audit of the Bureau of Engraving and
Printing’s Fiscal Years 2013 and 2012 Financial Statements
January 28, 2014




Office of
Inspector General
Department of the Treasury
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF                               January 28, 2014
INSPECTOR GENERAL




            MEMORANDUM FOR LARRY R. FELIX, DIRECTOR
                           BUREAU OF ENGRAVING AND PRINTING

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audit

            SUBJECT:              Management Letter for the Audit of the Bureau of Engraving
                                  and Printing’s Fiscal Years 2013 and 2012 Financial
                                  Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Bureau of Engraving and Printing’s (BEP) Fiscal Years 2013 and 2012
            financial statements. Under a contract monitored by the Office of Inspector
            General, KPMG LLP (KPMG), an independent certified public accounting firm,
            performed an audit of the financial statements of BEP as of September 30, 2013
            and 2012, and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and applicable provisions of Office of Management and Budget Bulletin No. 14-02,
            Audit Requirements for Federal Financial Statements.

            As part of its audit, KPMG issued, and is responsible for, the accompanying
            management letter that discusses other matters involving internal control over
            financial reporting and its operations that were identified during the audit but were
            not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG did not comply, in all material respects, with generally
            accepted government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789 or a
            member of your staff may contact Shiela Michel, Manager, Financial Audit,
            at (202) 927-5407.

            Attachment
THE DEPARTMENT OF THE TREASURY

   BUREAU OF ENGRAVING AND
           PRINTING




          MANAGEMENT LETTER
 FOR THE YEAR ENDED SEPTEMBER 30, 2013
            JANUARY 23, 2014
                                            BUREAU OF ENGRAVING AND PRINTING
                                                  MANAGEMENT LETTER
                                          FOR THE YEAR ENDED SEPTEMBER 30, 2013

                                                               TABLE OF CONTENTS




MANAGEMENT LETTER .................................................................................................................................. 1

APPENDIX A ............................................................................................................................................ A-1

           Deficiencies in the Reconciliation of National Finance Center (NFC) Records to Payroll Record
           ….. ................................................................................................................................................... A-1
           Deficiencies in Internal Controls Related to the Disposal of Capitalized Property ....................... A-2
                              KPMG LLP
                              Suite 12000
                              1801 K Street, NW
                              Washington, DC 20006




January 23, 2014

The Inspector General, Department of the Treasury and
The Director of the Bureau of Engraving and Printing, Department of the Treasury:

In planning and performing our audit of the financial statements of the Bureau of Engraving and
Printing (the Bureau), as of and for the year ended September 30, 2013, in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-02, Audit
Requirements for Federal Financial Statements, we considered the Bureau’s internal control over
financial reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the financial statements. In conjunction with our audit of
the financial statements, we also examined management’s assertion that the Bureau maintained
effective internal control over financial reporting in accordance with attestation standards
established by the American Institute of Certified Public Accountants, and the standards
applicable to attestation engagements contained in Government Auditing Standards issued by the
Comptroller General of the United States.

During our audits, we noted matters involving internal control that are presented for your
consideration in Appendix A to this report. These comments and recommendations, have been
discussed with the appropriate members of management, are intended to improve internal control
or result in other operating efficiencies. Management’s responses to these comments and
recommendations are included in Appendix A. The Bureau’s written responses to our comments
and recommendations have not been subjected to the auditing procedures applied in the audit of
the financial statements and, accordingly, we express no opinion on them.

Our audit procedures were designed primarily to enable us to form opinions on the financial
statements and on management’s assertion on the effectiveness of internal control over financial
reporting and, therefore, may not bring to light all weaknesses in policies and procedures that
may exist. We aim, however, to use our knowledge of the Bureau’s organization gained during
our work to make comments and suggestions that we hope will be useful to you.

We would be pleased to discuss these comments and recommendations with you at your request.

The purpose of this letter is solely to describe these comments and recommendations intended to
improve internal control or result in other operating efficiencies. Accordingly, this letter is not
suitable for any other purpose.

Very truly yours,




                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                                                                                       Appendix A




Deficiencies in the Reconciliation of National Finance Center (NFC) Records to Payroll
Records (Repeat Finding)

The Bureau performs reconciliations between both the hours worked and accrued leave processed
by the National Finance Center (NFC) and the amount of hours worked and accrued leave
reflected in the Bureau’s payroll records for a random sample of 25 employees each pay period.
(collectively referred to as the NFC to Payroll reconciliation). Additionally, this reconciliation is
reviewed by supervisory personnel. Bureau personnel were unable to provide evidence that the
NFC to Payroll reconciliation had been performed for three pay periods selected for testwork.
Additionally, there was no evidence supervisory review had been performed over one additional
NFC to Payroll reconciliation selected for testwork.

Office of Management and Budget (OMB) Circular No. A-123, Management Accountability and
Control, Section II: Establishing Management Controls, states the following: “Transactions
should be promptly recorded, properly classified and accounted for in order to prepare timely
accounts and reliable financial and other reports. The documentation for transactions,
management controls, and other significant events must be clear and readily available for
examination.”

The Bureau does not have formal policies and procedures for completing and approving NFC to
Payroll reconciliations. Additionally, the Bureau has not implemented proper monitoring
controls to ensure that the evidence of preparation and review of the NFC to Payroll
reconciliation is maintained. The inability to accurately determine if payments made to
employees are correct and that leave balances are accurate could lead to a potential misstatement
of payroll expense and related accrued liabilities.

We recommend the Bureau develop and implement written policies and procedures to ensure a
proper reconciliation and related supervisory review are performed over payroll data submitted to
the NFC including provisions to ensure that records are maintained to evidence that the control is
being performed and reviewed timely.

Management Response:

Management concurs with the recommendations and will take the necessary steps to implement
policies and procedures to ensure a proper reconciliation and related supervisory review are
performed over payroll data submitted to the NFC including provisions to ensure that records are
maintained to evidence that the control is being performed and reviewed timely.




                                                A-1
                                                                          Appendix A, continued


Deficiencies in Internal Controls Related to the Disposal of Capitalized Property

When the Bureau disposes of capitalized property, a Form 8540: Report of Excess Property is
required to be completed. During our fiscal year (FY) 2013 audit, we noted that, out of five asset
disposals tested, two assets were physically disposed of in a prior fiscal year; however, the assets
were removed from the fixed asset ledger in FY 2013. Furthermore, a Form 8540 was not
completed for these disposals. Through further investigation it was determined that 20 of the 27
disposals made in the fourth quarter of FY 2013 were physically disposed of in a fiscal year prior
to FY 2013.

OMB Circular No. A-123, Management Accountability and Control, Section II: Establishing
Management Controls, states the following: “Transactions should be promptly recorded, properly
classified and accounted for in order to prepare timely accounts and reliable financial and other
reports. The documentation for transactions, management controls, and other significant events
must be clear and readily available for examination.”

The two deficiencies noted were related to Information Technology (IT) Software and Hardware.
The disposal process for IT Software and Hardware differs from the disposal process for other
property, plant and equipment, and the Office of Information Technology (OIT) is responsible for
identifying IT Software and Hardware that are no longer being used and should be disposed of.
OIT maintains the inventory of IT Software and Hardware in Remedy, a database used for
tracking assets. However, OIT does not always contact the Office of Facilities Support or OFM
when disposing of IT Software and Hardware to determine whether the disposals should be
removed from the Bureau’s fixed asset records. In addition, the Bureau program offices do not
adequately review and provide timely feedback on the listing of assets within their offices
distributed by the OFM on a quarterly basis. As a result, fixed assets, including IT Software and
Hardware, no longer in use are not timely removed from the Bureau’s capital asset records and
the general ledger. However, this has minimal impact on the financial statements as capital assets
are reported net of accumulated depreciation. For example, the net book value of the exceptions
identified in our testwork was less than $4,000 at the date of disposal.

We recommend that the Bureau: (1) include IT Software and Hardware in the population of fixed
assets from which it selects its annual sample for physical inventory observation; (2) have the
OFM send its quarterly listing of active assets to OIT to review and update; (3) provide additional
training to program offices regarding the importance of the quarterly inquiry of activated assets
initiated by OFM and instruction on how to effectively respond to that inquiry.

Management Response:

Management concurs with the finding and OFM will ensure that all program offices understand
the significance of properly communicating the activation and disposal of assets. The Accounting
Department will coordinate quarterly reviews of active assets and task the Office of Facilities
with monitoring the disposal of IT Software and Hardware.




                                               A-2
